DOE/IG-0466




         AUDIT
        REPORT




                                 IMPLEMENTATION OF INTEGRATED
                                 BUSINESS INFORMATION SYSTEMS
                                WITHIN THE DEPARTMENT OF ENERGY




                                               APRIL 2000




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                     April 3, 2000

MEMORANDUM FOR THE SECRETARY

FROM:           Gregory H. Friedman (Signed)
                Inspector General

SUBJECT:        INFORMATION: Audit Report on "Implementation of Integrated Business
                Information Systems Within the Department of Energy"

BACKGROUND

The trend in both government and the private sector is greater reliance on "Integrated Business
Information Systems" which are modern information systems that can be used to manage
business functions as a seamless unit rather than as separate activities. The attraction of these
software systems lies in management's ability to access real-time data, link business processes
and applications, support immediate responses to change, and incorporate best business
practices. A number of the Department's facility management contractors were in the process
of developing and implementing such systems. The objective of the audit was to evaluate the
progress being made by the Department's contractors in this effort.

RESULTS OF AUDIT

We selected eight of the Department's largest contractors for review. We found that six of the
eight contractors had implemented integrated business information systems. However, two of
the contractors, Westinghouse Savannah River Company (WSRC) at the Savannah River Site
and the University of California (UC) at the Los Alamos National Laboratory, had not. WSRC
terminated its project to implement an integrated information system after investing 9 months
and $11.5 million, and UC terminated its project after spending over 2 years in development
and $3.6 million in related costs. The contractors did not follow Federal and Departmental
guidelines for software projects. For example:

     •   WSRC did not prepare a project plan, or adequately define the project scope;
     •   UC did not assign an overall project manager to be accountable for its
         implementation of PeopleSoft;
     •   Neither UC nor WSRC performed the required feasibility study, or reengineered the
         affected business processes before investing in information technology; and
     •   Neither UC nor WSRC established performance indicators as required by the
         Government Performance Results Act of 1993.

We concluded that the above examples were the primary cause of the difficulties they
encountered in implementing an effective business management system. As a result, the
Department received no appreciable benefit from the $15.1 million invested in the new
systems at these sites. One objective of the effort to introduce integrated business management
systems is to increase the efficiency of Departmental operations. At the Savannah River Site,
                                                -2-


alone, the Department estimated that it could have saved $86 million over a 4-year period if the
integrated business information system had been successfully implemented. Thus, the effort to
introduce such systems, on time and on budget, has a significant potential benefit.

This audit compliments recently issued report DOE/IG-0463, Commercial Off-The-Shelf Software
Acquisition Framework, dated March 20, 2000. DOE/IG-0463 dealt with acquiring "desktop" type
software such as word processing, spreadsheets, email, and other ancillary type of programs.
Together these two reports identify some of the information technology challenges facing the
Department.

MANAGEMENT REACTION

We recommended a series of actions to ensure that future efforts to develop Integrated Business
Information Systems are successful. The Savannah River and Albuquerque Operations Offices
concurred with the finding and recommendations.

Attachment

cc Deputy Secretary
   Under Secretary
   Acting Under Secretary for Nuclear Security/Administrator for Nuclear Security
IMPLEMENTATION OF INTEGRATED BUSINESS INFORMATION
SYSTEMS WITHIN THE DEPARTMENT OF ENERGY

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations...............................................….2


               Two Contractors Did Not Implement New Integrated Business
               Information Systems

               Details of Finding.......................................................................3

               Recommendations and Comments ...........................................8


               Appendix

               Scope and Methodology.............................................................9
OVERVIEW


INTRODUCTION AND   The Department uses the services and expertise of contractors to
OBJECTIVE          manage and operate its field activities. To improve their efficiency in
                   meeting the Department’s missions, at least 21 contractors are
                   implementing modern business information systems. The contractors
                   have been acquiring new systems primarily from three companies:
                   Systems, Applications and Products (SAP); Oracle Corporation
                   (Oracle); and PeopleSoft Incorporated (PeopleSoft). The cost to
                   implement the new systems ranged from $2 million to $29 million for
                   the 8 contractors reviewed. The variation in costs was due to the
                   different types of systems procured and the number of modules
                   implemented. Also, several of the contractors acquired their systems at
                   discounted prices through corporate software license and maintenance
                   agreements.

                   The Office of Inspector General (OIG)issued Report DOE/IG-0436,
                   The U.S. Department of Energy’s Procurement and Assistance Data
                   System, in January 1999. The audit concluded that the Department did
                   not comply with generally accepted system practices for integrating its
                   procurement information and financial management systems. The audit
                   recommended that the Director, Office of Management and
                   Administration develop an implementation plan that includes relevant
                   analyses using generally accepted system practices. The Department
                   concurred with the recommendation and agreed to develop an
                   implementation plan.

                   In addition, the OIG recently issued Report DOE/IG-0463, Commercial
                   Off-The-Shelf Software Acquisition Framework, dated March 2000.
                   The audit concluded that the Department had not developed and
                   implemented software standards or effectively used enterprise-wide
                   contracts, key components of a commercial off-the-shelf computer
                   software (COTS) acquisition framework. Departmental offices
                   (Federal and contractor) acquired application and operating system
                   software that varied in type and price and duplicated procurement
                   efforts by awarding and managing multiple contracts for the same
                   product. The audit recommended that the Chairperson for the Executive
                   Committee for Information Management require the development and
                   implementation of mandatory Department-wide standards governing
                   the acquisition of computer software, and negotiate and award a
                   Department-wide COTS software contract, or use similar multi-agency
                   contracts.




Page 1                                                       Introduction and Objective
                  The objective of this audit was to determine whether the Department's
                  contractors have implemented integrated business information systems.

CONCLUSIONS AND   Six of the eight contractors reviewed have implemented integrated
OBSERVATIONS      business information systems. However, two of the contractors,
                  Westinghouse Savannah River Company (WSRC) at the Savannah River
                  Site and the University of California (UC) at the Los Alamos National
                  Laboratory, have not. WSRC terminated its project to implement an
                  integrated information system after investing 9 months and $11.5 million
                  in the project, and UC terminated its implementation project after an
                  investment of 29 months and $3.6 million. The contractors were
                  unsuccessful in their implementation efforts because they did not follow
                  Federal and Department guidelines for software projects. As a result, the
                  Department did not receive the expected benefit from the $15.1 million
                  invested in new systems at WSRC and UC. Also, the Department
                  estimated it could have saved $86 million over a 4-year period if WSRC
                  had successfully implemented and integrated a business information
                  system.

                  The audit identified significant issues that the Savannah River and
                  Albuquerque Operations Offices should consider when preparing its
                  yearend assurance memorandum on internal controls.


                                                        Signed
                                               Office of Inspector General




Page 2                                                   Conclusions and Observations
TWO CONTRACTORS DID NOT IMPLEMENT NEW INTEGRATED BUSINESS
INFORMATION SYSTEMS



Six Contractors       Of the eight contractors reviewed, six implemented new business
Implemented New       systems. The six contractors, their sites, and the systems they
Systems—Two Did       implemented are as follows.
Not

                              Contractor                     Site                  System(s)

                          Allied Signal Federal     Kansas City Area Office       PeopleSoft
                           Manufacturing &
                              Technologies

                        Bechtel Jacobs Company       Oak Ridge Reservation          Oracle

                        DynMcDermott Petroleum        Strategic Petroleum           SAP
                          Operations Company                Reserve

                            Lockheed Martin          Oak Ridge Reservation          SAP

                          Oak Ridge Associated       Oak Ridge Reservation          Oracle
                              Universities

                           Sandia Corporation           Sandia National            Oracle/
                                                         Laboratories             PeopleSoft

                      However, two of the contractors, WSRC and UC, did not successfully
                      implement new business systems. WSRC cancelled its project to
                      implement a SAP system after 9 months of effort; and UC suspended its
                      project to implement a PeopleSoft system after 29 months of effort,
                      pending review of a consultant’s recommendation to terminate the
                      project.

                      WSRC planned to integrate 42 existing business systems into a single
                      SAP system in March 1997. The existing systems were 15 to 20 years
                      old and obsolete. In many cases, external technical support was no
                      longer available. As a result, software maintenance was expensive and
                      the risk of program failure was high for some systems. Despite these
                      problems, WSRC terminated the SAP implementation project in
                      December 1997, after investing 9 months and $11.5 million in the
                      project. Management believed that the funds needed to complete the
                      project could be better used on other projects.




Page 3                                                                      Details of Finding
                           UC established a plan to integrate PeopleSoft into its Human
                           Resources systems in three phases beginning in February 1997.
                           Phase I was completed in August 1998; however, Phases II and III
                           were never completed. After investing 29 months and $3.6 million
                           in the project, UC suspended the implementation of its PeopleSoft
                           system in June 1999. The contractor hired a national consulting firm
                           to determine whether it should continue or terminate the project, and
                           the consulting firm recommended that the project be terminated.
                           After the conclusion of our audit fieldwork, management terminated
                           the project until a further study is conducted.

Integrated Business        Converting to modern integrated business information systems
Information Systems        would make the Department more productive and economical.
Provide a Benefit to the   Modern integrated business information systems can be used at each
Department                 Department site to manage the site's business functions as a seamless
                           unit rather than as separate activities. The attraction of these
                           software systems lies in management’s ability to access real-time
                           data, link business processes and applications, support immediate
                           responses to change, and incorporate best business practices. For
                           example, the U.S. Mint implemented PeopleSoft to integrate the
                           manufacturing, sales and distribution processes; shorten closing
                           times on the financial cycle; better track materials; and consolidate
                           standalone financial and manual record keeping systems.

WSRC and UC Did Not        The attempts to implement new systems at WSRC and UC failed
Follow Federal and         because the contractors did not follow Federal and Department
Department Guidelines      guidelines for software projects. For example, WSRC did not
                           prepare a project plan, or adequately define the project scope, both of
                           which are required for software projects by Department Directive
                           G200.1-1A, Software Engineering Methodology (SEM). Also, UC
                           did not assign an overall project manager to be accountable for its
                           implementation of PeopleSoft, as required by Department
                           Order 4700.1, Project Management. Neither UC nor WSRC
                           performed a feasibility study as required by the SEM, or
                           reengineered the affected business processes before investing in
                           information technology, as required by Executive Order 13011,
                           Federal Information Technology. Finally, neither UC nor WSRC
                           established performance indicators as required by the Government
                           Performance and Results Act of 1993.




Page 4                                                                        Details of Finding
             Project Plan Was Not in Place Before Implementation Began

         UC developed a project plan before implementation began, but
         WSRC did not. The purpose of a project plan is to establish
         reasonable plans for performing software engineering and for
         managing and tracking the software development project. The
         WSRC implementation team delivered a draft of the project plan to
         the Department at the beginning of the implementation process. The
         team planned to develop a more detailed project plan, but it was
         never completed. An incomplete version was delivered to the
         Department six months after the implementation of SAP began.

            Project Scope Was Not Defined Before Implementation Began

         UC defined the scope of the implementation project, but WSRC did
         not. The WSRC Project Team and the implementation consultants
         believed that the SAP Project scope was not well defined prior to
         implementation. The Project Team stated that they were not
         supplied with sufficient information to make scope determinations.
         Also, the consultants stated in their project scope review that there
         was a large uncertainty about the number of employees who would
         ultimately use the SAP system. The Project Manager believed there
         would be 7,000 users, whereas the Information Technology Team
         expected only 500 to 900 users. The consultants stated that the set of
         users should be better defined and that conversions, interfaces, and
         custom reports had not been determined or were poorly defined.

                      Overall Responsibility Was Not Assigned

         Unlike WSRC, UC did not assign a Project Manager with overall
         responsibility for the implementation of PeopleSoft. Instead, three
         people shared project management duties and responsibilities. The
         Human Resources Project Manager had day-to-day management
         responsibilities for system implementation, but, did not have
         supervisory authority over Computer Information and
         Communications Division (CIC) personnel on the implementation
         team and did not manage the project funding. Also, the Technical
         Project Leader managed CIC personnel, but did not manage the
         Human Resources personnel or the project funding. Finally, the
         Group Leader for Human Resources managed funding for the
         project, but did not manage CIC or Human Resources personnel.




Page 5                                                     Details of Finding
         Feasibility Study Was Not Completed Before Implementation Began

         Neither WSRC nor UC conducted a feasibility study before
         beginning the implementation process. The feasibility study is an
         important tool for identifying and reviewing software and hardware
         alternatives in order to support a "go" or "no go" decision. WSRC’s
         consultants stated in an October 1996 report that a SAP pre-selection
         scope and sizing study was needed. The purpose of the pre-selection
         study was to estimate the cost to implement SAP and to act as a
         high-level feasibility study to assist management in finalizing the
         procurement decision. However, the procurement decision was
         made in December 1996 and the implementation began in March
         1997, three months before the pre-selection feasibility study was
         conducted. UC did not perform a feasibility study, stating that cost
         was not a consideration in the purchase or implementation of
         PeopleSoft.

         Business Processes Were Not Reengineered Before Implementation
                                     Began

         Neither WSRC nor UC reengineered pertinent business processes
         before attempting to implement new information systems. WSRC
         planned to reengineer its business processes concurrent with system
         implementation. The Project Manager stated the business processes
         to be reengineered should have been identified prior to starting the
         project.

         UC's primary reason for implementing PeopleSoft was to use a
         single software package to develop two independent systems, the
         Salary Review System and the Employee Personnel Action System.
         However, if UC had reengineered its business processes before
         attempting to implement the new system, management could have
         determined that PeopleSoft was not suitable for developing the
         Salary Review System and the existing software was suitable for
         developing the Employee Personnel Action System.

         The Salary Review System was designed to replace an older system
         that tracked salary reviews and allocated salary increases. After nine
         months of developing the Salary Review System, the Salary Policy
         Committee proposed major changes in its philosophy for conducting
         the Salary Review process. These process changes, which should
         have been identified as part of reengineering, prevented UC from
         using the PeopleSoft system because of technical limitations. The
         PeopleSoft Salary Review System was eventually abandoned.

Page 6                                                     Details of Finding
                                          Performance Measures Were Not Used

                           Neither WSRC nor UC had meaningful and measurable performance
                           indicators as defined in the Government Performance and Results
                           Act of 1993 to assess and track the progress of system
                           implementation. WSRC’s draft project plan contained no
                           performance measures, it stated that performance metrics would be
                           established for project implementation and future system
                           performance. However, performance metrics were never
                           established.

                           Likewise, UC did not have clearly defined performance measures to
                           assess the progress of implementing the PeopleSoft system. UC
                           personnel did not agree on the elapsed time or total cost required for
                           completion of the project. System implementation was budgeted
                           from year to year with no formal plan for the total project cost.
                           Further, the implementation plan did not include the level of effort
                           required beyond the current year.

Expected Benefit Was Not   The Department did not receive the expected benefit from its
Received                   $15.1 million investment in new business systems at WSRC and UC.
                           The Department invested $11.5 million at WSRC and $3.6 million at
                           UC without implementing either new system. However, some
                           benefits were obtained, such as the updating and validation of
                           Savannah River Site's business system databases.

                           Also, the Department estimated it could have avoided $86 million
                           over a 4-year period if WSRC had successfully implemented the
                           SAP System. If the project was completed as originally planned,
                           significant savings could have been realized through staffing
                           reductions and improvements in business processes for procurement,
                           human resources, finance, and project management. The Department
                           estimated that the staffing reductions could have been as many as
                           280 employees, and avoidable maintenance costs for obsolescent
                           software would be at least $3.1 million annually.

                           We were unable to estimate the future savings that UC could accrue
                           if it had implemented a modern integrated business information
                           system.




Page 7                                                                        Details of Finding
RECOMMENDATIONS    We recommend that:

                       1.   The Managers for the Savannah River and Albuquerque
                            Operations Offices require WSRC at Savannah River Site
                            and UC at LANL to adequately define the scope of the
                            project and perform a feasibility study to determine whether
                            an integrated business information system should be
                            implemented.

                       2.   The Manager, Savannah River Operations Office require
                            WSRC to reengineer associated business processes,
                            establish performance measures to assess progress, and
                            develop a detailed project plan prior to implementation
                            should the project be authorized.

                       3.   The Manager, Albuquerque Operations Office direct UC at
                            LANL to assign a project manager with overall
                            responsibility for the project, reengineer associated
                            business processes, establish performance measures to
                            assess progress, and develop a detailed project plan prior to
                            implementation should the project be authorized.

MANAGEMENT         The Savannah River and Albuquerque Operations Offices concurred
REACTION           with the finding and recommendations. WSRC developed a concept
                   document to initiate a project to replace existing major applications
                   and agreed to include the project scope in the feasibility study and to
                   perform the recommended actions should the project be authorized.

                   The Albuquerque Operations Office agreed to implement the
                   recommendations of the report. Additionally, Albuquerque stated
                   that it will determine whether to disallow any costs for the
                   unsuccessful project, and will consider incorporating DOE G 200.1-
                   1A, Software Engineering Methodology, into the contract.

AUDITOR COMMENTS   Management was responsive to the recommendations. However,
                   neither WSRC nor Albuquerque Operations Office stated when the
                   recommended actions would be taken.




Page 8                                             Recommendations and Comments
Appendix

SCOPE         The audit was performed between April and December 1999 at
              Lockheed Martin Energy Systems and Energy Research, Oak Ridge
              Associated Universities, and Bechtel Jacobs Company in Oak Ridge,
              Tennessee; DynMcDermott Petroleum Operations Company at the
              Strategic Petroleum Reserve in New Orleans, Louisiana; Sandia
              Corporation at the Sandia National Laboratories in Albuquerque, New
              Mexico; University of California at the Los Alamos National
              Laboratory in Los Alamos, New Mexico; Allied Signal Federal
              Manufacturing & Technologies at the Kansas City Area Office in
              Kansas City, Missouri; Westinghouse Savannah River Company at the
              Savannah River Site in Aiken, South Carolina; and Office of Chief
              Information Officer in Washington, D.C. The audit covered the
              implementation of SAP, Oracle, and PeopleSoft integrated business
              information systems at eight contractor locations.

METHODOLOGY   To accomplish the audit objective we:

              •   Reviewed Federal and Departmental regulations, guidance, and
                  standards for implementing information technology systems;

              •   Evaluated contractor procedures and practices for acquiring and
                  implementing information technology systems;

              •   Reviewed business case studies and implementation data from SAP,
                  Oracle, and PeopleSoft.

              •   Analyzed feasibility studies, project plans, cost benefit analyses,
                  and performance measures applicable to the Department’s
                  implementation of new business systems.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              audit included reviews of Departmental and contractor policies,
              procedures, and performance measures related to the implementation of
              integrated business information systems. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              rely extensively on computer-processed data.

              We discussed the results of our review with the Savannah River and
              Albuquerque Operations Offices during the course of the audit and both
              sites waived exit conferences.

Page 9                                                       Scope and Methodology
                                                                               IG Report No. :DOE/IG-0466

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
 The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


           U.S. Department of Energy Office of Inspector General, Home Page

                                 Http://www.ig.doe.gov

Your comments would be appreciated and can be provided on the Customer Response Form
                               attached to the report.
